<html>
<title> - Kyrgyzstan: Prospects for Democratic Change and the Upcoming Presidential Election</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the
1st Session    }       Commission on Security and Cooperation in Europe                 
                                           
======================================================================

                       Kyrgyzstan:  Prospect for 
                       Democratic Change and the 
                     Upcoming Presidential Election


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      September 26, 2017
           
           
                         Briefing of the
               Commission on Security and Cooperation in Europe
----------------------------------------------------------------------------------------
                         Washington : 2017



           Commission on Security and Cooperation in Europe
                  234 Ford House Office Building  
                       Washington, DC 20515
                         202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98a9a8a8ca984888085c781869c9a8cc78e869f">[email&#160;protected]</a>
                      http://www.csce.gov
                        @HelsinkiComm

                                       
                                       
                     Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                           [II] 
                                
                                
 ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE                               
                                
      The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                          Kyrgyzstan: Prospects for 
                          Democratic Change and the  
                       Upcoming Presidential Election

                           September 26, 2017


                    
                                                                          Page

                              PARTICIPANTS

Everett Price, Policy Advisor, Commission on Security and Cooperation in
Europe.....................................................................  1
Dr.  Erica Marat,  Assistant  Professor, National Defense University........ 3
Anthony Bowyer, Caucasus and  Central Asia  Senior Program Manager, International  Foun-
dation for Electoral Systems (IFES) .........................................4
Marc  Behrendt, Director for Europe and  Eurasia Programs, Freedom House.....8

                                  [IV]
                           
 
                          Kyrgyzstan: Prospects for 
                          Democratic Change and the  
                       Upcoming Presidential Election
                              
                              ----------                              

                           September 26, 2017

             Commission on Security and Cooperation in Europe
                             Washington, DC


    The briefing was held at 10:30 a.m. in Room 202, Senate Visitor 
Center, Washington, DC, Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe, moderating.
    Commissioner present:  Hon. Shirley Jackson Lee, Commissioner, 
Commission on Security and Cooperation in Europe.
    Panelists present: Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe; Dr. Erica Marat, Assistant 
Professor, National Defense University; Anthony Bowyer, Caucasus and 
Central Asia Senior Program Manager, International Foundation for 
Electoral Systems (IFES); and Marc Behrendt, Director for Europe and 
Eurasia Programs, Freedom House.

    Mr. Price. Good morning. Thank you, everybody, for coming. Welcome 
to our Kyrgyzstan briefing on ``Prospects for Democratic Change and the 
Upcoming Presidential Election.'' I hope everybody's in the right 
place.
    My name is Everett Price, and I'm a policy advisor on the U.S. 
Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission.
    Before I introduce our briefing and panel this morning, I would 
like to begin by recognizing my colleague, fellow Helsinki Commission 
Policy Advisor and longtime Central Asia expert Janice Helwig, who has 
provided key support to shaping and realizing this event. Janice is 
based in Vienna, so she can't be here today. She's out there supporting 
the U.S. Mission to the Organization for Security and Cooperation in 
Europe, the OSCE. But I hope that she's watching from the other end of 
our Facebook Live stream, as I hope many others are as well.
    Last week, at the opening of the 72nd Session of the United Nations 
General Assembly, Kyrgyz President Almazbek Atambayev declared that 
Kyrgyzstan is changing. The Kyrgyz Republic, he said, is the first and 
only country in the post-Soviet Central Asia with parliamentary 
democracy. Indeed, the reasonably competitive electoral politics seen 
in Kyrgyzstan are unparalleled in the rest of the region. But as a 
young and unconsolidated democracy that experienced political 
revolutions in 2005 and 2010, Kyrgyzstan's political institutions 
remain weak and vulnerable to the influence, both direct and indirect, 
of its authoritarian past and repressive neighbors. We have convened 
this briefing this morning to discuss the next signpost in Kyrgyzstan's 
democratic journey, the presidential election on October 15th.
    In many ways, this is a pivotal election for the country. Current 
President Atambayev is prohibited by the constitution from running for 
a second six-year term and is abiding by that limit. This is in 
contrast to leaders elsewhere in Central Asia, who have changed the 
rules to avoid term limits and remain in power. And unlike in 
neighboring countries, the outcome of the election does not appear to 
be predetermined.
    On October 15th, the Kyrgyz people will go to the polls to choose 
among 13 candidates--maybe it's 12 now--a slate that has been winnowed 
down from 59 who originally filed and further consolidated in recent 
weeks as political alignments have been brokered. The two top vote-
getters could face off in a second round a couple weeks after to 
determine the final outcome.
    Despite the relatively large number of contenders, however, most 
observers assess that the field is defined by the competition between 
the two front runners, who both served as prime ministers under the 
outgoing president. The ruling party's candidate, Sooronbay Jeenbekov, 
served as prime minister from April 2016 until August of this year. The 
other leading contender, Omurbek Babanov, served as prime minister from 
2011 to 2012 and is one of Kyrgyzstan's wealthiest businessmen. When 
asked to describe the nature of the competition between these two men, 
Polis Asia political analyst Elmira Nogoibaeva said that it comes down 
to a fight, quote, ``between money or administrative resources.''
    To be sure, the president and his administration have not been shy 
about expressing their support for Jeenbekov. Atambayev recently 
appeared to threaten those he believed may be working against his 
preferred candidate, saying, quote, ``Let's not forget that until 
December 1st I will be this country's president, and I will have 
sufficient time to severely punish all those who plan disturbances in 
our country.'' There are also media reports that Kyrgyz Deputy Prime 
Minister Duishenbek Zilaliev told state employees in a September 19th 
meeting that they should support the current government's candidate. 
There are other concerns about the conduct of the election as well: A 
main opposition leader has been imprisoned, and media has been harassed 
for, quote, ``insulting the president.''
    Our first panelist today, Dr. Erica Marat, recently wrote that, 
quote, ``This year's vote will not mark a significant step towards 
strong governance procedures. Instead, it will present further 
consolidation of patronage structures in the country.'' This assessment 
is doubtless sobering. In addition, Kyrgyzstan's broader framework of 
human rights protections and democratic institutions have been under 
threat recently. The county's parliament has been toying with a foreign 
agents law that would undermine the civil society sector. Atambayev 
also successfully championed constitutional amendments in December 2016 
that weakened human rights protections and strengthened the powers of 
the president at the expense of the independence of the judiciary. 
Inter-ethnic tensions, which flared into large-scale open violence in 
2010, also remain unresolved.
    There are echoes of these worrying domestic developments in 
Kyrgyzstan's representation in the multilateral forum of the OSCE. In 
the OSCE, Kyrgyzstan has grown increasingly obstructionist. It 
downgraded its field missions earlier this year, blocking the OSCE 
budget in the process, and also blocked agreement on human rights-
focused events in an effort to limit NGO participation.
    To examine these political dynamics, election procedures, and 
broader human rights issues, we have invited an expert panel that I'm 
honored to introduce to you now. First, to talk generally about the 
political context and dynamics surrounding the election, we have Dr. 
Erica Marat. The full bios are in the folders that are on your seats, 
but I'll just go through just some brief highlights. Dr. Marat is an 
associate professor at the Defense University's College of 
International Security Affairs and an expert on security issues in 
post-communist countries with a focus on military, national, and 
regional defense, as well as state-crime relations. Marat is currently 
working on a book exploring police reform programs in post-communist 
states. Her case studies include Ukraine, Georgia, Kazakhstan, 
Kyrgyzstan, Tajikistan, and Mongolia. She's also written ``The Military 
and the State in Central Asia: From Red Army to Independence,'' 
published by Routledge in 2009, and ``The Tulip Revolution: Kyrgyzstan 
One Year After'' by Jamestown in 2006.
    Next we'll hear from Anthony Bowyer from the International 
Foundation for Electoral Systems, where he serves as a senior program 
manager for Europe and Eurasia. Mr. Bowyer's present work includes 
designing and overseeing implementation of election-focused technical 
assistance and civic education projects in the South Caucasus and 
Central Asia, and empowerment of youth, women, ethnic minority groups, 
and persons with disabilities as part of a program on inclusion in 
several countries of Eurasia.
    And then, last but not least, Marc Behrendt. Marc Behrend is the 
director for Europe and Eurasia Programs at Freedom House, with over 20 
years of experience working in the Eurasia region in peacebuilding, 
governance, and human rights. Prior to joining Freedom House, Behrendt 
ran his own consulting firm promoting security and development, 
primarily in the Eurasia region, and one of the highlights from that 
time was his participation supporting the Kyrgyzstan Inquiry 
Commission.
    I'm delighted to have such an expert panel here to discuss this 
topic. So, without further ado, I'd like to turn it over to Dr. Marat. 
Please just turn on your mics.
    Dr. Marat. Good morning, and thanks for organizing this discussion. 
I think it is really important for the country and for neighboring 
countries in Central Asia to be exposed to discussions like this here 
in Washington, D.C.
    Let me start by saying that the upcoming elections in Kyrgyzstan 
are really the best in Central Asia in terms of competitiveness, 
unpredictability of the outcome, and general sense of fairness. And the 
next best example of elections becoming such important governance 
indicators in post-Soviet Union would be Georgia, Armenia, or eastern 
parts of the former Soviet bloc.
    That said, there are still a lot of old patterns dating back to the 
authoritarian past of the 1990s and 2000s that prevail today in 
Kyrgyzstan. And while these elections will be yet another example of 
frequent elections that are constitutionally defined and not ordered by 
the incumbent leader, as it usually happens in the Central Asian 
region, there are issues here to consider still.
    What we see today in Kyrgyzstan is a competition between two main 
leaders. One is representing the pro-presidential party, Sooronbay 
Jeenbekov, and another is representing the Respublika party, Kmurbek 
Babanov. And one is relying--because he is from the pro-presidential 
party--he's relying on the public-sector employees' loyalty and their 
work in campaigning in his favor across the country, while Babanov, 
being a wealthy entrepreneur, is probably spending the most out of all 
the candidates on promoting himself across the county. So while one is 
relying on public sector, another is relying on his wealth.
    But that in itself is not as big of a problem as some of the 
underlying processes that are not visible behind this dynamic 
campaigning that we see in Kyrgyzstan. And what I mean by that is the 
following: Only candidates with stronger representation in the 
parliament are able to have a fair chance of winning the presidential 
post in Kyrgyzstan.
    That, in itself, does not seem to be problematic. However, if we 
look behind what the political parties represented and how they are 
structured, we see that all the four or five largest political parties 
in Kyrgyzstan that have nationwide recognition and popularity are 
clustered around individual politicians as opposed to political ideas. 
So they're based on loyalty to their founders and to their leaders who, 
in turn, run for presidential posts. And because the campaigning cycle 
is only 35 days in Kyrgyzstan, people outside of this political 
establishment who don't have representation in the parliament, or don't 
have the backing of a political party, don't have a chance to get 
nationwide traction or to form a significant challenge to the status 
quo.
    What happens as a result of the elections--be that Jeenbekov or 
Babanov--we will see further consolidation of those patronage networks 
within political parties. That, again, the government seats and 
political parties--less so parliamentary elections--will be formulated 
based on personal loyalty of various individuals to party leaders. And 
it becomes problematic because Kyrgyzstan ends up falling into some of 
the same pitfalls that a lot of other post-authoritarian countries 
experience; that on the one hand we have competitive and unpredictable 
and somewhat fair elections. So the electoral season is dynamic and 
seems not to be favoring a particular candidate.
    But on the other hand, what happens in between elections becomes 
problematic, because politics is guided by patronage relations and the 
leaders who are elected are not interested in an independent judicial 
branch. They are not interested in having opposition in the parliament. 
So they have these incentives to continue installing their loyalists in 
the government and in the parliament in order to consolidate personal 
loyalty in politics. So while elections can be democratic in nature, 
and probably will score results by national standards, what happens in 
between is suppression of NGOs, of human rights, of political 
prosecutions, and a lack of reform to establish better governance.
    Mr. Price. Thank you very much. I think that's a great tee-up, so 
Anthony can share with us a little bit about what exactly the campaign 
has been like until now, and some of those other concerns that you've 
raised.
    Mr. Bowyer. Yes, thanks very much, indeed, for the opportunity to 
speak today on the upcoming presidential election in the Kyrgyz 
Republic, scheduled for the 15th of October.
    As mentioned, I represent the International Foundation for 
Electoral Systems, which for 30 years has worked in over 145 countries 
just for citizens' rights to participate in genuine and democratic 
elections. Integral elections are the cornerstone of a healthy 
democracy and allow all people to exercise their basic human right to 
have a say in how they're governed. With generous backing from the 
United States Agency for International Development and international 
partners, IFES supports and assists the development of credible 
electoral processes globally.
    In the Kyrgyz Republic, IFES works with its consortium for 
elections and political process strengthening partners, namely the 
National Democratic Institute and the International Republic Institute. 
With my allotted time this morning, I would like to underscore the 
importance of this election both to Kyrgyzstan and to the U.S. and its 
cooperation in the region.
    This will be an historic vote, ostensibly the first regular 
transition of power from a sitting president who has completed a 
constitutionally defined term of office to a successor. We can even use 
the standard applied elsewhere in Eurasia, and suggest that a country 
which successfully completes a second peaceful transfer of power via 
nationwide popular election--the first, of course, coming in 2011 from 
interim President Roza Otunbayeva to President Atambayev--passes a key 
test in determining whether the country is truly on a democratic 
trajectory.
    This is important and noteworthy in the region, all but devoid of 
genuine electoral contests, particularly in resource-poor Kyrgyzstan in 
relation to the four hegemons exerting pressure upon it. Those, of 
course, including Uzbekistan, Kazakhstan, China, and, most 
significantly, the Russian Federation.
    The stakes in Kyrgyzstan and Central Asia are high as the country 
continues to be an outlier among its neighbors in terms of its 
political vibrancy, and the only one in the region to espouse a 
parliamentary form of government. Kyrgyzstan approaches the elections 
in uncertain terms, with one key candidate barred from seeking the 
presidency, and suspicions--as Erica said--that state administrative 
sources may be used to benefit preferred candidates. That said, the 
October 15th vote is shaping up to be a genuinely contested election, 
for which the electoral authorities have been ardently preparing for 
the past 10 months.
    This election should be regarded as very important to the United 
States as well, which has invested in promoting democracy and human 
rights in Kyrgyzstan and in the region for many years, only to see its 
influence wane in the face of relentless efforts led by outside actors 
to sideline and discredit the U.S. as a partner. At a time when 
Kyrgyzstan is subject to unprecedented external pressures and economic 
political and security spheres, the country looks to the United States 
and European partners for support and encouragement in its efforts to 
hold a transparent and inclusive election. To that end, the country's 
electoral authority and the central election commission has embarked on 
a plan, supported by U.S.-funded aid organizations, such as IFES and 
other international partners, to modernize its processes and procedures 
in an effort to become more accountable and less an extension of the 
executive branch, as has been the case in the past.
    The use of ballot scanning and reporting technology, combined with 
better trained and more professional election administrators, has 
increased confidence in the election results since the introduction of 
such technology in the 2015 parliamentary vote. Similarly, the state 
registry service, which manages the voter database, employs a 
biometrical system of voter identification which has provided greater 
security of the vote overall. The CEC recently embarked on an ambitious 
program, supported by IFES and others, of assessing polling stations 
across the country for accessibility by persons with disabilities, and 
developing infrastructure and procedural improvement plans to 
accommodate these traditionally marginalized voters. The CEC and the 
SRS have also undertaken an unprecedented outreach program to educate 
voters and ensure that as many eligible voters are registered as 
possible and informed of the election ahead of the 15th of October.
    The campaign, as suggested, has thus far been active, though 
dominated in particular by two of the three former prime ministers 
running as candidates who served under President Atambayev; of course, 
Omurbek Babanov and Sooronbay Jeenbekov. One concern often repeated has 
been the potential for the misuse of state and administrative resources 
in support of one of the candidates. And it's a test of the Central 
Election Commission and civil society organizations observing the 
process and conducting media monitoring to ensure that the rules and 
regulations governing campaigns and equitability are observed and 
enforced.
    It is also vital that the sources of campaign finance are 
scrutinized, disclosed, and regulated carefully under the existing 
laws, as Kyrgyzstani elections have been marked in the past by 
irregularities and suspicions of undeclared and undisclosed foreign-
originated financial backing of certain candidates and political 
parties by those countries seeking to buy influence in the region--
chief-most among them the Russian Federation--as well as various forms 
of individual vote buying, which has also been historically a major 
problem in Kyrgyzstan.
    In addition, there have been some reports of university professors 
ordering students to vote for certain candidates on election day. Now, 
while none of these cases or suspicions are new, or should be regarded 
as new to elections in Kyrgyzstan, they do represent potential dangers 
to the integrity of the election should they take place on a large 
scale, and must at all costs be guarded against. The assistance 
provided to election management bodies at all levels by IFES and other 
international partners, which has included development of new training 
practices, in-person training and e-learning training modules as part 
of the preparation of polling officers, has focused on promoting 
ethical responsibility and neutrality in the administration of the 
elections by all election officials, irrespective of their political 
affiliation.
    Now, as the U.S. examines its own recent history of presidential 
voting and possible cases of interference, it needs to continue 
supporting counterparts in Kyrgyzstan charged with overseeing the 
transparent vote, one that is representative of the will of the voters 
in Kyrgyzstan, and continuing to encourage the highest standards of 
accountability. The assistance provided by the U.S. is regarded as 
critical, as the U.S. remains an enduring model for genuine and 
democratic elections.
    Now, in a parliamentary democracy, such as Kyrgyzstan, the 
president, it goes without saying, continues to play an outsized role. 
Given the tradition of strong presidential leadership in Kyrgyzstan and 
the region as a whole, this election will most certainly define the 
country's political, economic, and foreign policy direction for the 
next six years. Whoever prevails among the now 12 registered candidates 
competing in the October 15th vote--and we can consider the troika of 
ex-Atambayev prime ministers among them, two in particular as the 
leading candidates--will need to deal with the ever-present challenges 
of economic development, security, and issues of corruption.
    One factor to mention that can play a decisive role in the upcoming 
election is the participation of young and first-time voters. With 
Kyrgyzstan's demographics skewing young, the participation of voters 
under the age of 30 can have a major impact. There are over 30,000 
first-time voters in this election alone. To that end, under USAID 
funding, IFES and its partners have been working through both the 
formal education system and civil society via extracurricular 
activities to promote civic awareness and responsibility as a way of 
engaging future generations in the democratic process. Younger voters 
need to be addressed by the candidates in the election process itself, 
as they've often been overlooked and neglected as a key constituency. 
This has, in turn, resulted in voter apathy and disinterest or, worse 
yet, compelled many young persons to seek other, pointedly non-
democratic or non-peaceful, forms of expression.
    Another key voting constituency are women, who represent a potent 
and key voting bloc, though who, in many cases, lack sufficient 
information to make informed decisions, particularly in the regions. 
Labor migrants are another important group of voters. And some 
candidates have specifically appealed to migrants in Russia and in 
Kazakhstan to assure that they are eligible to cast ballots out of the 
country. It should be noted as well that the electoral enfranchisement 
of ethnic minorities will be closely observed to ensure that these 
communities are given equal opportunity to cast ballots. Irregularities 
in the electoral and political process resulting in ethnic discord and 
disharmony have left an enduring mark in the past, as is well known, 
particularly in the volatile south of the country.
    As part of the CEC's preparation for the election, Chairwoman 
Nurzhan Shalidabekova embarked on an oblast-by-oblast listening tour to 
hear from voters of all stripes ahead of the vote, troubleshoot local 
problems, provide voter education information, and improve overall 
communication between the CEC, lower-level election commissions, and 
voters.
    As is known, democracy in Kyrgyzstan has been under assault both 
internally and externally since the events of 2010. Authoritarian 
regimes in the region have galvanized radicalization of young persons, 
many of whom have traveled to join the ranks of ISIS and later returned 
to Central Asia, espousing militant ideals.
    Economic pressure and tough energy policies exerted by neighbors, 
perhaps magnified by Kyrgyzstan's membership in the Eurasian Economic 
Union, present a challenge to day-to-day living. In addition, an anti-
Western worldview, as broadcast from media sources originating outside 
of Kyrgyzstan, continues to disparage democracy and freedom of speech 
in the country. More than ever, the U.S. needs to stand by its 
principles and support democracy, human rights, and genuine elections 
in what is often a troubled county and a troubled region. Ongoing 
attention and assistance in democracy and governance would help fortify 
Kyrgyzstan's parliamentary democracy, which serves as the lone 
counterweight in the region to its large authoritarian neighbors.
    America's interests are best served by having a politically vibrant 
and diverse democratic ally in central Asia that upholds human rights 
and inclusivity of participation of all sectors of society, and should 
continue to encourage Kyrgyzstan to pursue these goals as a key and 
equal partner amidst the many challenges it confronts both internally 
and externally. Kyrgyzstan is a country in which the results of U.S. 
support for democratic transition and genuine elections can be seen in 
the efforts of state bodies, such as the CEC and the SRS. For these 
partners, U.S. support is an indispensable part of administering an 
election on the 15th of October that will be representative of the will 
of the people and true to the unyielding spirits of the Kyrgyzstani 
electorate to pursue democratic outcomes in the face of daunting 
challenges.
    I'd like to thank the Commission once again for the opportunity to 
share thoughts. And I look forward to the ensuing discussion.
    Mr. Price. Thank you very much, Anthony. I appreciate it. And now 
to zoom out beyond the campaign dynamics itself and the electioneering, 
I invite Marc to present his perspective.
    Mr. Behrendt. Chairman Wicker, Co-Chairman Smith, and members of 
the Commission, it's an honor to join you today for this important 
discussion.
    Presidential elections in Kyrgyzstan are planned for 15 October 
2017. It is expected that for the first time in Kyrgyz history a 
sitting president will leave office voluntarily as a result of the 
elections. This should be a landmark victory in the process of 
democratization. Unfortunately, trends in recent years do not support 
such optimism. Freedom House publishes each year a number of reports 
measuring the status of democratic freedoms in the world. The most 
detailed report for the Eurasia region is Nations in Transit, which 
covers countries in Eastern Europe and the former Soviet Union.
    Using the same methodology year in and year out, these reports 
effectively illustrate nuanced changes in a number of categories that 
we believe are necessary for a free society, including national and 
local democratic governance, effective and fair electoral processes, 
the freedom of civil society, the independence of the media, the 
judicial framework and judicial independence, and the level of 
corruption in the country. After the tumultuous events of 2010 in 
Kyrgyzstan, the Nations in Transit reports reflected steady 
improvements over a number of years.
    However, beginning in 2014, many of these improvements reversed. 
Last year Kyrgyzstan dropped further in the Nations in Transit 
rankings, becoming a consolidated authoritarian regime in our parlance. 
It has only gotten worse in the run-up to the presidential elections. 
The media has been a target for government attacks throughout the year. 
Zanoza.kg, September TV, Radio Azattyk and many individual journalists 
have faced criminal and civil legal challenges, effectively shutting 
many of these down.
    Zanoza.kg and its reporters collectively face more than $390,000 in 
fines for offending the honor and dignity of the president. September 
TV was closed, allegedly for extremist content. RFE/RL, Radio Liberty, 
known locally in Kyrgyzstan as Radio Azattyk, was also named in a suit 
for insulting President Atambayev, though in this case the suit was 
dropped.
    Challenges for the electoral process persist. Last year's 
referendum amending the constitution was rushed through, the election 
authority failed to administer the elections impartially, and election 
day was marred by multiple violations. The situation has not improved 
leading up to the presidential elections. Amendments to the election 
law now prevent civil society organizations from independent election 
observation. They are deprived of full access to polling stations on 
election day and no longer have legal standing to launch formal 
complaints of election violations.
    The independence of the judiciary further deteriorated with the 
adoption of constitutional amendments in December, with the active 
participation of the judiciary itself. Only 1 of 11 constitutional 
court judges protested changes to the constitution, even though those 
changes undermined the very independence of the judiciary that the 
constitutional court is supposed to protect. The unwillingness of the 
judiciary to fill its role is illustrated by the Supreme Court's 
failure to adequately review the case of Azimzhan Askarov, who has been 
imprisoned on trumped-up terrorism charges since 2010, after the U.N. 
Human Rights Committee urged the government to quash his conviction on 
the grounds the Kyrgyzstan had violated a number of the articles of the 
international covenant on civil and political rights, despite the fact 
that Kyrgyzstan is a signatory to the convention.
    Kyrgyzstan's civil society sector has been met with concerted 
attacks in the past year. After facing off the threat of a draconian 
draft law on foreign agents that would have dramatically closed space 
for civil society to operate in Kyrgyzstan in late 2016, civil society 
faced increasing reports of intimidation of civic activists, including 
pressure on international organizations, defamation campaigns against 
human rights defenders, and surveillance of human rights activists 
related to the constitutional referendum. That's a quote from Nations 
in Transit.
    Most disturbing is a recent draft law that would revoke Kyrgyz 
citizenship on the grounds that an individual poses a threat to 
national security. The oversight process is particularly draconian. The 
security services would conduct an investigation, refer a case to the 
prosecutor general, who would in turn refer the case for review by 
commission within the Ministry of Justice. However, the members of this 
commission are representatives of the Ministry of Interior, the police, 
and the security services. Thus, there would be no independent review 
at all if this law is adopted.
    In what government could claim as an effort to limit participation 
of potential presidential candidates, two politicians were sentenced in 
August for crimes allegedly committed years previously. In August, the 
leader of the Ata Meken Party, Omurbek Tekebaev, will start a four-and-
a-half year term in prison, and former MP Sadyr Japarov an 11-year 
term. A third opposition politician, MP Aida Salyanova, was also 
sentenced in August, this time to eight years in prison. Such massive 
arrests of opposition politicians is unprecedented in Kyrgyzstan.
    I will conclude with a few recommendations. The United States 
should urge the government of Kyrgyzstan to drop the draft citizenship 
law and allow civil society full access to polling stations for 
independent election observation, explaining the important role that 
civil society plays in all nations. The United States should hold the 
government of Kyrgyzstan accountable to its own laws and to the 
international commitments it has freely undertaken when joining the 
Organization for Security and Cooperation in Europe, including a 
commitment to the protection of freedom of the media.
    The United States should urge the government of Kyrgyzstan to 
immediately release Azimzhan Askarov and all other political prisoners, 
and should drop all charges against them. And lastly, the U.S. 
Government's support from democracy, rights and governance initiatives 
in Kyrgyzstan should take into account the need to support the 
engagement of civil society with its own society, as an alternative to 
efforts supporting civil society to engage with a reluctant government 
partner.
    Thank you very much.
    Mr. Price. Thank you very much, Marc.
    I think we have a great backdrop for a deep conversation on the 
upcoming election in Kyrgyzstan. I wanted to pick up on a few of the 
threads that you all have left us with to dig a little bit deeper into 
what to expect on October 15th and assess some of the trends that we've 
discussed thus far. Just first, on a technical point--Marc, you brought 
up the restrictions on civil society's access to polling stations. I 
was wondering if, Anthony, do you have any assessment of that? I'm not 
sure if I may have missed it in your comments thus far, but is that 
something that's of concern to IFES as well, in terms of the 
transparency of the election?
    Mr. Bowyer. Restrictions on observers are always of concern. And in 
the past, one of the charges the government had made is that there were 
simply too large numbers of observers taking part. Well, that's a plus 
of a system which allows greater transparency. So it is obviously a 
concern. Civil society in Kyrgyzstan has always been the most vibrant 
in the region. And they played an essential role in working as part of 
the check and balance system on the work of Election Commission and the 
work of government in general. So it is something that is certainly of 
concern that one would want to encourage them to reconsider.
    Mr. Price. I understand. And just to understand the broader 
election and what the Kyrgyz people are being asked to consider when 
they go to the polls on October 15th, what are the hottest issues in 
the campaign today? What's being talked about by the candidates? What 
are the differences between them? What are their platforms? And that'll 
go to anybody who feels comfortable answering.
    Dr. Marat. This is a great question. And part of the reason why the 
electoral campaigning is really improving in Kyrgyzstan is because 
important issues are being discussed in these campaigns. Usually it's 
economics, employment. So economy and employment, providing jobs and 
just increasing general wealth of the population, and preventing 
further labor migration in Kyrgyzstan.
    It is also about national unity. That's a more sensitive topic, 
about national identity, intercultural, interethnic peace. And finally, 
it's corruption. There is a lot of populism surrounding the fight 
against corruption and prosecution of officials who take bribes. Those 
are three nationwide issues. And also, issues vary depending on the 
village, on the province, depending on what are the economic or social 
issues faced by the local population.
    Mr. Price. And do security issues come up in the campaign? I know 
there's concern about violent extremism and radicalization trends in 
Central Asia. Some of that, I know, is also in worker populations that 
live abroad. But do some of those security concerns come into the 
campaign?
    Dr. Marat. Yes, they do. Especially radicalization among men and 
women and returning ISIS followers to Kyrgyzstan. They do come up. And 
it varies from province to province, but in general there is, I would 
say, also populism around preventing foreign forms of radical Islam and 
ensuring that Kyrgyzstan has its own brand of moderate Islamic 
tradition. That also comes again and again in campaigns.
    Mr. Bowyer. Oh, sorry, if I could quickly jump in--thanks, Marc.
    Indeed, as Erica suggests, there are local issues at play here as 
well. Many of those involve infrastructure, or lack thereof, and 
certain oblasts of the country, as well as land issues. And something 
that's been a problem in the southern regions, Batken and elsewhere, 
have been localized conflicts with the territories of Uzbekistan and 
northern Tajikistan. There have been border skirmishes involving 
villages that have been quite violent, actually. And this has been 
something that is of concern to the south.
    And if one looks at a recent survey, from earlier this year, there 
was a poll conducted by our partner at the International Republican 
Institute, clearly showed that perception of relations with Uzbekistan 
has been improving, given the new kind of forward-looking relationship 
between the two presidents, while relations with Tajikistan, 
conversely, have been declining. And certainly I think that is in many 
ways related to some of these border issues and land issues that we 
have seen emerging in the past couple of years.
    Mr. Behrendt. The only thing I wanted to add was the security issue 
is also a boogeyman. That's always used to attack critics of the 
government. So while a lot of the media outlets that we've been talking 
about have been attacked using the honor and dignity issue, we also 
find people being attacked for being extremists. September TV was 
closed for that reason. And most of the time it's false accusations 
that are often leveled against ethnic Uzbeks in the country.
    Mr. Price. That's an important reminder.
    Now, one thing that I haven't been able to get a grasp of is 
whether there is really a difference between the candidates? Both of 
them were prime ministers under the current president, as I understand 
it. So, do their agendas diverge? Is there a meaningful difference here 
to be had that's being presented to the people?
    Dr. Marat. They promise all the same things. They might call it by 
different names. I don't think there is a significant difference in the 
content of campaigns between the two leading candidates. One difference 
that always comes out, but is immediately criticized, is the extent of 
wealth and economic development that Babanov is promising through 
deregulation, through creating the right conditions for 
entrepreneurialism, et cetera. The type of promises he's making are 
extremely ambitious, but they're also widely criticized as being 
unrealistic.
    Mr. Bowyer. I could pick up on that to something we were talking 
about before the session started. One difference seen in the 
frontrunners, if you will, has been the level of energy. Mr. Babanov is 
very active. He is running a very active campaign. If you're in Bishkek 
you can't help but see the advertisements for his candidacy. Obviously, 
there's a lot of money behind that. But also he's been seen outside of 
Kyrgyzstan having relatively high-level meetings. One caused a bit of a 
stir recently when he went to meet Nazarbayev in neighboring 
Kazakhstan.
    But just generally, a younger person, a 47-year-old, versus Mr. 
Jeenbekov, who's perhaps less charismatic in that respect and perhaps 
showing off less energy--but who does benefit certainly from the 
semblance, and indeed, the support of the incumbent president, and all 
of the administrative levers and advantages that that provides? So I 
think it is quite interesting to look at the dynamism of the two 
candidates. On an equal playing field, it is quite stark.
    Mr. Price. That's interesting. It does seem like style over 
substance to some degree in this campaign. But also as you've all 
raised previously, the personalized nature of politics is very strong 
and the political party development has been relatively weak. So it's 
unsurprising, I suppose.
    I wanted to ask: You've both referenced the mini-scandal that took 
place with Babanov's visit to Kazakhstan to meet with President 
Nazarbayev. I was wondering, could you explain a little bit more about 
what that kind of instance of outreach is about? What are the Kazakhs 
trying to accomplish with that? What is Babanov trying to accomplish 
with that? And how does that play into a campaign like that? Does that 
make him more vulnerable as being seen as kind of a stalking horse for 
one outside power versus another? How does that play into the dynamics 
with Uzbekistan and some of their other neighbors? How do they exert 
influence?
    Dr. Marat. OK. So Nazarbayev, as a politician, he's quite popular 
in Kyrgyzstan. And Atambayev is notorious for not really being able to 
maintain friendly and diplomatic relations with the neighbors. So I 
think for Babanov, this was an opportunity to show that he has regional 
support and he looks presidential. For Nazarbayev, that could, perhaps, 
be a way of showing his regional dominance. But the way Atambayev and 
his government have interpreted it as Kazakhstan's intervention in 
elections in Kyrgyzstan is ironic, because Atambayev himself, when he 
was campaigning for president in 2011, he went and met with Vladimir 
Putin.
    Mr. Bowyer. Exactly the point. And if Babanov goes to meet with 
Putin, then there really could be a shake out as well. But I think he's 
projecting himself as a statesman and as a potential president. Of 
course the excuse was, by the Kazakhs, that he was a member of 
parliament. He's well-known. We can meet with any foreign dignity, and 
one of his renown and so forth. But does it suggest, Everett, in your 
question, that perhaps Kazakhstan may favor Mr. Babanov as a candidate? 
That bears further discussion, further thought, if those are the waves 
being signaled by this meeting.
    It is possible. Although we've heard a lot of the brotherly 
relations between Kyrgyzstan and the Russian Federation, in fact the 
polls show a near-universal approval rating for Russia in Kyrgyzstan. 
It could be possible that Russia is--in fact, more than possible--
behind the scenes as well, harboring or perhaps supporting one or the 
other of the candidates. Perhaps it's Mr. Babanov, perhaps not.
    Mr. Price. Does there seem to be a favorite from the Kremlin's 
perspective in this race?
    Mr. Bowyer. I have no idea. [Laughter.]
    Dr. Marat. It doesn't seem like there is, but I would say that 
independent of who is elected, it's not going to be that difficult for 
the Kremlin to exert influence on whoever's elected. And before the 
electoral campaign began, Babanov traveled to Moscow, and he had 
meetings with top officials there. For Jeenbekov, of course, it hurts 
the relations that Atambayev was able to build with Kremlin if Babanov 
becomes president. So regardless of who is president, there is going to 
be a strong presence of Russian influence in Kyrgyzstan's Government.
    Mr. Bowyer. And this is vital, given the scores of labor migrants 
at any one time living and working in the Russian Federation. You 
mentioned Uzbekistan as well, and I thought it was a very interesting 
point because we've seen the relationship, with Mirziyoyev becoming 
president, improve markedly over the past months. And I would think 
that it would be in Kyrgyzstan's interest to continue that. But at the 
same time, a change in leadership, to whoever it may be, presents new 
opportunities. I would imagine the Uzbeks and others will size up 
whoever wins and decide their approach from there. But it seems to be 
good politics in this country when candidates travel abroad to showcase 
their foreign policy credentials, to be doing so as well in this 
election for those who are able to, and there's not many that can. So I 
think Mr. Babanov in this sense is being pragmatic as well as running a 
solid campaign.
    As mentioned before, it's no surprise that of these many labor 
migrants abroad, many are eligible to vote. Not many actually do, but 
if they did, it could represent a significant percentage of the vote. I 
don't expect that will happen, but the fact that they are reaching out 
and they're acknowledging the importance of this community also plays 
well back in Kyrgyzstan itself for those family members who are left at 
home.
    Mr. Price. Now, you've also referenced, several of you, the role of 
regional affinities and regional origins for some of the candidates and 
for the politics in Kyrgyzstan. Could you also help us understand and 
identify those fissures? What are the dynamics there? What do the 
original origins of the candidates have? What significance does that 
have in the election?
    Dr. Marat. One positive sign here is that the candidates are not 
along the north-side divide or identity. And that's usually the issue 
in Kyrgyzstan, that there are northern politicians and there are 
southern politicians. Both leading candidates seem to have support 
across the country, and again, they're not trying to capitalize on the 
divide. That's a positive sign.
    Let me just return to some of the other issues, on fairness and on 
migration, if I may. When we talk about campaigning, there's already 
debate and criticism in civil society about this election not being 
fair. There's already this idea that because this uncharismatic 
presidential candidate is influencing the public sector and possibly 
the CEC, the Central Electoral Commission, that elections will not be 
fair.
    And there is a slight possibility that there might be challenges by 
competing candidates after the elections against Jeenbekov, if he ends 
up winning. So it's not all beautiful and smooth campaigning. There's 
already talks about these elections not being as fair as people would 
have expected them to be.
    Also, the migrants--Anthony, you mentioned about biometrics and how 
that is improving accountability of the voting on election day--I think 
the problem here is the hundreds of thousands of labor migrants in 
Russia and in Kazakhstan and Turkey, Europe, China. They were cut off 
from the process because of those biometrics, because they would have 
to travel to the embassies to submit their biometric data, and then 
again travel to go on the voting day. There are not that many 
representations, foreign representations, in Russia of the Kyrgyz 
Government to allow all those migrants to vote.
    So the bottom line here is that hundreds of thousands of citizens, 
most of them young entrepreneurs, young migrants in Russia and 
Kazakhstan, will not be able to cast their votes. That's a big issue. 
And that's something countries like Kyrgyzstan need to figure out going 
into future elections. Having this large population abroad, how do you 
make sure that they also get an opportunity to vote on the election 
day?
    Mr. Price. Go ahead.
    Mr. Behrendt. I have just one other point. I didn't mention it in 
my remarks, but there has also been a ruling by the city council in 
Bishkek to exclude key sites in the city, basically all of the most 
important places--in front of the Parliament, in front of the CEC, in 
front of the presidential administration--as places where people can 
manifest or demonstrate. And that exclusion extends beyond the period 
of when people can launch formal complaints about the election process.
    Now, this is quite in contrast to Kyrgyzstan, which historically 
has been very open to the ability to freedoms of manifestation. But 
it's being enforced even on an individual level. I think it was in 
August that one individual literally was detained by the police as an 
individual single person for holding a sign. So it's not about big 
groups or anything. It's down to the individual level. And civil 
society is raising this as a key issue.
    Mr. Bowyer. To add on to what Erica said, I would agree completely 
with the issue of voting from abroad. It's an issue not only for 
Kyrgyzstan but for many countries. And one potential way, although 
we're not there yet, to resolve it would be some form of internet 
voting. You'd have to be very certain that it would be secure, and I 
think you could, but there's really no way to assure that at this 
point.
    In the past, when there have been elections in countries outside 
the Russian Federation, at consulates or embassies inside of Russia as 
well, many migrants who happened to be in those cities working--and 
there are many in Moscow, St. Petersburg and elsewhere--would be 
hesitant to go to the embassy or consulate because it was used by the 
Russian authorities as a way to trap people who were in the country 
illegally. So they were even less incentivized to go and vote, knowing 
that it may carry some personal risk as well.
    Mr. Price. Interesting.
    If I could just revisit the regional question again, what is that 
north-south divide? What is that about? What characterizes the 
fissures? Are there ethnic dimensions there? It's a 101 question.
    Dr. Marat. It's basically this idea that there needs to be a 
rotation so when there is a candidate who is originally from northern 
parts of the country, he would need to be replaced by someone from the 
south. And that ensures that it can be a fair game for all.
    But I think this divide is really politicized by the politicians 
themselves. When they face competition, they appeal to their regional 
identities to legitimize their competitive edge, to promote themselves. 
And the idea behind it is that the southerners, candidates from the 
south, will care more about the population in the south, and vice 
versa.
    But the important point here is that in these elections we don't 
see these divides being brought up as a way of campaigning.
    Mr. Behrendt. Just some background on the north-south divide. You 
know, the south is where most of the country's Uzbeks live. It is 
culturally part of the Ferghana Valley. It has been part of an 
urbanized civilization for thousands of years, which is quite 
distinctly different from the north. The majority population in the 
south is still Kyrgyz, but nonetheless that relationship between the 
Kyrgyz and Uzbek national groups certainly flared up into violence in 
2010.
    One of the reasons for the 2010 violence was control of very 
lucrative smuggling markets between Afghanistan and Uzbekistan, mostly 
heroin poppy seed production of one kind or another. So that got 
politicized into an inter-ethnic conflict. That's one of the ways to 
explain what happened in 2010. That money is still there, and that is 
still going on. Maybe it has been just decided upon between elites in 
the government and that the control of those resources are not actually 
in dispute right now during this election.
    Mr. Price. Interesting.
    Mr. Bowyer. Politics are, of course, very clan-based in Kyrgyzstan. 
For the first 15 years after independence, there was the perception 
that it was the northern clans who were in power and the southerners 
really out of power. But as we were talking about beforehand as well, 
as Marc just alluded to, many things could be being discussed in terms 
of the post-election makeup of the government being discussed right now 
among the candidates.
    A lot of governance decisions are made and positions are made ahead 
of an election behind closed doors--similar to horse trading, if you 
like. We may see some of that today with the removal of one candidate 
who supported Jeenbekov. So this may be continuing. In fact, we may end 
up with fewer than 12 candidates running on the 15th.
    Mr. Price. And I wanted to ask about some of the candidates that 
were excluded from participation. How do you think that that shaped the 
race?
    Dr. Marat. There were quite a few candidates excluded, and among 
them, Rita Karasartova and Kamila Sharshekeeva. They are prominent 
public figures, Karasartova being a civil-society activist and 
Sharshekeeva working in and being the main founder of the American 
University in Central Asia. And they are the type of candidates who 
have interesting ideas, good knowledge of what it takes to create fair 
governance structures and improve the conditions for the most 
vulnerable population in the country.
    Karasartova, being a lawyer, had really interesting ideas on 
constitutional reform and I was hoping they would bring important 
debates. They would be important participants in political debates 
leading up to elections, even though none of them would have the 
opportunity to actually win anything. But they were excluded from the 
process based on quite silly reasons, the main reason being that the 
signatures that they collected in their support--and I believe there 
are 30-plus thousand signatures that they need to collect--were filled 
out by the same ink color, and possibly by the same person. So it was 
not verifying, actually, if people really signed for them. They just 
excluded those based on just how it looked, not what was behind them.
    So I think the reason why they were excluded is because they would 
be bringing important ideas, interesting ideas, which would potentially 
make the leading candidates look not as intelligent. And it was easy to 
exclude them because they don't have a political party backing in the 
Parliament or outside of Parliament.
    Mr. Price. I also wanted to hear a little bit more about the work 
of IFES and Freedom House. For IFES's part, what are you going to be 
looking for after the election in terms of measuring the success of the 
programming and initiatives that you've been running in the country?
    Mr. Bowyer. Well, first of all, we don't. Although we will be 
conducting a very small-scale technical observation on Election Day, we 
don't issue proclamations about the elections, such as the OSCE or 
other partners do. We look more with a relatively modest sample size, 
but also drawing from the observations of international groups, how the 
election was administered. Were there problems? Was there the ability 
to file a complaint and have it reach the courts and have it be 
resolved amicably, in accordance with the law?
    Also looking at the lower-level performance of the precinct 
election commissions, of which there are some 2,300 or 2,400 scheduled 
for the 15th, and assessing, I guess, in the big picture overall 
performance based on number of disputes, based on information from 
other observers, and also looking at how the Central Election 
Commission responded to the challenges that they heard about on 
election day. Were they responsive in guiding the territorial precinct 
election commissions to react and to problem solve?
    Again, all this is presuming that the Central Commission is acting 
free enough from influence of the executive body. I'm not making that 
assumption yet. That is the hope. Historically that's not been the case 
in Kyrgyzstan. It's hopeful that this commission will improve over its 
predecessors. We'll have to see and assess that on election day itself. 
I think as well with in terms of the aftermath, we'll take a look with 
other international partners, other local partners, and hold a series 
of public forums with the input of various stakeholders to have an open 
discussion, open forum, about what worked well, what didn't, and always 
looking ahead to the next elections, be it local, be it national, on 
what systems and practices can be improved.
    Yes, there have been some negative steps. These certainly will 
factor in the reports that come out of the OSCE, that come out of other 
groups. And everybody will take a hard look at what needs to be done to 
change the political will, to have a more open election, if that's the 
way things are assessed. We'll take a look and certainly not hold back 
in terms of recommendations.
    Mr. Price. And for Freedom House's part?
    Mr. Behrendt. Well, civil society in Kyrgyzstan is going through a 
crisis. For many years they were held up as the cream of the crop in 
Central Asia, that they were very vibrant, very active, and very 
effective. And they had strong relationships for years, and the ability 
to engage with government, in fact, on state policy.
    Those doors seem to be closing, and it's becoming increasingly 
difficult for civil society to get the attention of the state. And that 
makes it a question about what their role now is in Kyrgyzstan.
    Now, one of the problems civil society all over the Eurasia region 
has faced is that they've learned to engage in advocating above. They 
advocate the government. They advocate the international bodies. 
They're good at producing recommendations. And they haven't spent as 
much time working with society and they haven't spent as much time 
convincing society that these principles--human rights, democracy, et 
cetera--are actually useful to the population and can respond to the 
public need.
    And so one of the things that we're doing after the elections, once 
things calm down a bit, is we're going to be doing some public-opinion 
research to actually get a sense of the attitude of the population to 
human rights and democracy and freedom. And how do they see these 
ideas, and what are their needs, in the hopes that we can both help the 
ombudsman's office or the National Preventive Mechanism, the NPM, but 
also, more specifically, civil-society organizations to reorient their 
work to actually address these needs that are identified.
    We all need to be more effective at articulating human-rights 
values, and democracy values, and freedom values as universal and 
human. We've spent a lot of time over the years talking about Western 
values, European values. And that hasn't served the people of Eurasia 
very well, because it opens up the criticism that these are all foreign 
exports.
    People care about freedom. People care about justice. They care 
about their own, when they come up against a system that's not actually 
responsive to them, when they come up against police that don't treat 
them the way they feel that they should be treated, or when they come 
up against problems in governance that aren't fair--that's when they 
can start seeing that these values are actually their own values. But 
civil society needs to do a lot more work to talk to them about it, and 
educate them, and reframe the way they do that.
    But overall, it's still very difficult for civil society. Like 
civil society in Russia or other places, the civil-society space has 
closed. And we think that the space for civil society to work in 
Kyrgyzstan has closed significantly. We're not as optimistic as some of 
my fellow panelists are.
    And so what do you do in this closing space, in a new environment? 
How can you be effective in a ``consolidated authoritarian state,'' is 
what Freedom House is calling Kyrgyzstan right now. There are things 
civil society can do. There are opportunities. They still have the 
ability to register. They still have the ability to work. And so in 
those contacts within the possibilities to work, what can they do? 
Really, it's our task to try to help to reorient their activities.
    Mr. Price. Thank you for sharing that.
    I'd like to turn the floor to questions as well.
    And I'd like to recognize Congresswoman Sheila Jackson Lee. Thank 
you very much for coming and for your presence here.
    If there are questions, please raise your hand, and Mae will come 
around with the microphone.
    Yes, sir.
    Questioner. Muhammad Tahir from Radio Free Europe/Radio Liberty.
    Two questions, actually. One is the detention of Tekebayev, how 
it's playing out in the election; and also detentions of several other 
politicians, whether it's adding up to increased tension.
    And what are the chances of a post-election turmoil, although we 
are also talking about these allegations by the candidates against each 
other--use of administrative resources and other things? How are these 
detentions adding to this tension, and what are the chances of a post-
election turmoil?
    Thanks.
    Mr. Price. And in addressing Tekebayev, if you could, for 
everyone's benefit, also explain a little bit about the background of 
his case.
    Dr. Marat. Tekebayev is, again, one of the prominent politicians in 
Kyrgyzstan and, according to him, the founder of the first political 
party in Kyrgyzstan, Ata Meken. He is also the inspirer, one of the 
founders of the constitution that was adopted in 2010.
    He has been prosecuted for corruption charges that have connections 
with entrepreneurs in Russia. And those allegations were known for a 
while, but somehow they became an issue for the judicial branch just 
before the elections.
    It is significant because Tekebayev, even though his ability to win 
the presidential post is quite slim--the political peak of his career 
is probably behind--would still be able to represent a formidable 
challenge to the candidate from SDPK. And he--unlike Babanov, who would 
be possibly be one of those who can negotiate with SDPK and they can 
find a deal should he become president--Tekebayev was one of the 
strongest opponents of Atambayev in the past few years.
    And it is difficult not to see his prosecution in a political 
light, because, again, corruption is ubiquitous in Kyrgyzstan. Everyone 
is somehow marred by corruption. But who do you prosecute? Who is 
prosecuted is really important. It sends a message to the rest of the 
society.
    Questioner. And prospects of turmoil.
    Dr. Marat. I wouldn't exclude that. There might be some post-
election turmoil if there is a perception that elections were rigged in 
favor of a certain specific candidate. And it goes beyond national 
observers, what international observers say, or even civil society 
says.
    Both Babanov and Jeenbekov have quite a robust network of followers 
who will be present across the country and watching how the other 
candidate is faring and whether there are any irregularities, busing of 
voters or anything like that, and report that. So they will be keeping 
an eye on the election day. And if there is a perception that elections 
were rigged, there might be a refusal by one of the candidates to 
recognize the election results. I would not exclude that. And that 
might create some uncertainty. But again, that's only if there are 
significant irregularities that are reported or perceived to be taking 
place.
    Mr. Bowyer. I think, if I may add, it goes back to what I suggested 
earlier about how the election commission, how the CEC, handles these 
potential irregularities. Is it perceived as an at least semi-
independent body, or is it perceived as an extension of the president, 
will determine much in what may happen thereafter.
    I want to as well point out that we mustn't exclude the possibility 
of a runoff between these two candidates. That is a distinct 
possibility, and that would be two weeks after the 15th. And then the 
stakes are even higher. Then you'll have all eyes truly on the process. 
And the CEC will be under even a larger microscope to make sure it's 
working transparently and in accordance with the law.
    How it manages these potential instances of dispute, how it reacts 
to localized cases of perhaps allegations of corruption or maybe 
violence, will tell much in what the reaction would be from the 
candidate who is aggrieved. I wouldn't put any bets on there being 
post-election tumult at this point, but in Kyrgyzstan, again, we've 
seen it before.
    Mr. Price. Any other questions?
    If I could pick up on something else that has been going around in 
the news--and analysis generally of the election--is the continued 
potential influence of Atambayev after the election. Are there ways 
that you feel that he might be angling to continue to exert his 
influence beyond the limit of his term? Do you all have any comment on 
that?
    Mr. Bowyer. Well, I think there's a suggestion that Jeenbekov is 
the vehicle for that potentially, as somebody who is clearly a favored 
candidate of Mr. Atambayev--that he may see him as a pliable means to 
continue exerting influence from behind the scenes, or maybe not so 
behind the scenes, and maybe grooming him for that possibility.
    If you look at what the recent moves have been in those who are 
other candidates who now may be turning to Jeenbekov, they may be 
looking more towards Mr. Atambayev and his presence as a political 
force beyond the election. It's a formula we've seen elsewhere in 
Eurasia. And maybe that's something that will indeed play out. But it 
would suggest, based on what we've seen so far, that Mr. Jeenbekov may 
be the very vehicle.
    Now, I would also point out that there will be candidate debates 
coming up. I think at this point they may have three groups of four, 
four groups of three, which will be quite interesting to see how Mr. 
Jeenbekov adjudicates himself in a mixed group, which could include 
perhaps even Beknazarov if he draws the short straw in that regard. 
It'll be interesting to see how he presents himself on a stage against 
other candidates discussing various issues.
    Mr. Price. So they'll break up the 12 candidates into separate 
segments of debate?
    Mr. Bowyer. That was the plan. Now, if they whittle down to fewer 
than a few candidates, then they may have them all on one stage. So 
that remains to be seen. But the plan has been, as happened previously 
during parliamentary elections, to have a random drawing of which 
grouping of candidates gets to appear on stage for one debate on one 
night and then the next group on the next night, and so forth.
    Mr. Price. Well, you might not even have the two frontrunners 
together on the same stage.
    Mr. Bowyer. Possibly.
    Mr. Price. Interesting.
    Are there any other questions from the audience or comments from 
our panel? Yes, sure, Marc.
    Mr. Behrendt. Yes, just to speak on this question of whether or not 
Jeenbekov is going to be the vehicle for Atambayev in the event that he 
wins. This scenario really depends on how consolidated Atambayev's 
power is in the state at the moment. This is one of the things about 
Kyrgyzstan we've never really known. It's always a sense of if it is a 
situation of different power groups that are competing with each other 
for power of the state and that is still in dispute, then, regardless 
of whether or not Jeenbekov wins, it would be unlikely that he would be 
able to or be willing to just be the proxy for somebody else.
    However, if that power scenario has been consolidated behind the 
scenes, like it has in the Russian Federation, for example, when 
Medvedev came into power--it was very clear that Putin continued to own 
the levers of power in the state--then it was an easy task. This, I 
think, has always been the question of Kyrgyzstan. To what degree is 
that competition for the power behind the power still going on?
    Mr. Price. Well, thank you very much, Marc, and to all of our 
panelists.
    We felt that it was important to convene this kind of discussion at 
this time because of what an important inflection point this is for 
democracy in Kyrgyzstan. I think we've benefited from the expertise 
from all of our panelists in understanding why exactly this election is 
as pivotal as it is. So I'd like to thank them once again.
    And thank you all for attending. And I wanted to also thank the 
interns that made this possible, in particular John. All these folks 
who join the Helsinki Commission as interns really function more as 
fellows, so they do the yeoman's work in making this 
possible.
    Thank you again, everybody.
    [Whereupon, at 11:45 a.m., the briefing ended.]
 
 

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
